cwmme  CIQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1332

ERIC D. SPEIDELL, ET AL.,
Petitioners,
Vv.
UNITED STATES OF AMERICA, THROUGH ITS
AGENCY OF THE INTERNAL REVENUE SERVICE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), 1 certify that the PETITION FOR
REHEARING FROM ORDER DENYING PETITION FOR WRIT OF CERTIORARI in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 1880 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Subscribed and sworn to before me this 12th day of July, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ae WOTARY-State of Nebraska Ki YH,
RENEE J. GOSS
My Comm. Exa. September ยง, 2023 9.

Notary Public

Qudiaw-h, Chk ;

Affiant
